HHS/OIG, Audit -"Eight-State Review of the Ability of Noncustodial Parents To Contribute
Toward the Medical Costs of Title IV-D Children Under the State Children's Health Insurance Program,"(A-01-03-02502)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Eight-State Review of the Ability of Noncustodial Parents To Contribute Toward the Medical
Costs of Title IV-D Children Under the State Children's Health Insurance Program," (A-01-03-02502)
May 16, 2005
Complete Text of Report is available in
PDF format (1.35 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the eight states selected for review, our objectives were to determine:  (1)
the number of children, potentially without health insurance, who would have been eligible to receive
SCHIP benefits and the amount that the noncustodial parents could potentially contribute toward SCHIP
premiums if their children had been enrolled; and (2) the number of children who received SCHIP benefits
and the amount that the noncustodial parents could potentially contribute toward SCHIP premiums.  We
estimated that 425,752 uninsured children whose noncustodial parents were unable to provide court-ordered
medical support would have been eligible to receive SCHIP benefits during the audit period if no other
health insurance had been available.  An estimated 228,907 of these children had noncustodial
parents who could potentially contribute $130 million towards the $214 million in costs that would
have been incurred if the children had been enrolled.  We also determined that 120,356 Title IV-D
children received SCHIP benefits during the audit period.  An estimated 34,066 of these children
had noncustodial parents who could potentially contribute $14 million toward the $22 million in SCHIP
premiums paid on behalf of their children.  We recommended that CMS: (1) issue program guidance
to advise States of their authorities under Federal law to collect SCHIP costs from noncustodial parents;
and (2) determine whether additional Federal funds are needed to assist States in interfacing their
Title IV-D and SCHIP databases and implementing a process to collect SCHIP costs from noncustodial
parents and, as appropriate, provide such funds.